HHS/OIG, Audit - "Review of Long-Term Care Hospital Classification -
Asheville Specialty Hospital," (A-04-07-00035)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Long-Term Care
Hospital Classification - Asheville Specialty Hospital," (A-04-07-00035)
June 9, 2008
Complete
Text of Report is available in PDF format (173 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For fiscal year 2006, Asheville Specialty Hospitals
(Specialty) average Medicare inpatient length of stay exceeded 25 days.  Thus,
Specialty complied with Federal regulations governing average length of stay,
and its classification as a long-term care hospital (LTCH) was proper.
Hospitals classified as LTCHs must have an average Medicare inpatient length of
stay of greater than 25 days, which includes all Medicare covered and
noncovered days and omits all Medicare leave and pass days.  However, hospitals
that were excluded from the prospective payment system in 1986 were subject to a
different length-of-stay requirement.  These hospitals must have an average
inpatient length of stay for all patients of greater than 20 days.  Specialty
was subject to the 25-day average length-of-stay requirement.  The Centers for
Medicare & Medicaid Services, which administers the Medicare program, directed
the Medicare fiscal intermediaries to verify that LTCHs complied with Federal
requirements.
Because Specialty complied with Federal regulations, we are
not offering any recommendations.